March 8, 2001
Audit Report No. 01-009


Securitization Transactions Serviced by
PNC Mortgage: Audit of Duplicate
Principal and Interest Advances
Federal Deposit Insurance Corporation                                                             Office of Audits
Washington, D.C. 20434                                                                Office of Inspector General




   DATE:                           March 8, 2001


   MEMORANDUM TO:                  Mitchell Glassman, Director
                                   Division of Resolutions and Receiverships


   FROM:                           David H. Loewenstein
                                   Assistant Inspector General


   SUBJECT:                        Securitization Transactions Serviced by PNC Mortgage:
                                   Audit of Duplicate Principal and Interest Advances
                                   (Audit Report No. 01-009)


   The Office of Inspector General (OIG) recently issued an audit report entitled Audit of Claims Made
   to the Credit Enhancement Reserve Funds for Securitization Transactions 1992-03 and 1992-04
   (Audit Report No. 01-008), related to two securitization transactions serviced by PNC Mortgage,
   Vernon Hills, Illinois (PNC). During the audit we found that PNC claimed principal and interest
   advances on certain loans that had also been claimed by the prior servicer, Ryland Mortgage
   Corporation (Ryland). After discussions with program officials in the Division of Resolutions and
   Receiverships Mortgage Backed Securities Administration (DRR MBS), we decided to review the
   remaining loans in the two sampled transactions, as well as the remaining six transactions that
   transferred from Ryland to PNC, to determine whether additional duplicate payments were claimed
   by PNC. This report presents the results of our audit work related to duplicate principal and interest
   advances in all of the transactions.


   BACKGROUND

   The Pooling and Servicing Agreement (PSA) requires the servicer to advance principal and interest
   payments to the certificate holders for loans that are in default. Normally, the servicer (in this case,
   PNC) is reimbursed for these advances when the property is liquidated. Upon liquidation of the
   property, the servicer prepares an officer’s certificate for submission to the trustee. The officer’s
   certificate documents the realized loss or gain on the disposition of the loan. The servicer nets the
   sales proceeds from liquidation against the advances made on the property and the outstanding loan
   balance. The resulting loss or gain is submitted in the officer’s certificate to the trustee for
   reimbursement or deposit. However, there are provisions within the PSA for the servicer to submit
                                                        1
claims for reimbursement when the servicer determines that its advances will not be recoverable
from either liquidation or insurance proceeds. During Ryland’s servicing of these securitization
transactions, it submitted claims for reimbursement of non-recoverable advances for loans that had
not been liquidated as of the date of the transfer of servicing to PNC. FDIC personnel were aware
of the potential for duplicate principal and interest claims as a result of the transfer and explicitly
warned PNC of the possibility of duplicate advances in its May 20, 1998 letter to PNC counsel. In
that letter, the FDIC asked PNC to work with Ryland to ensure that duplicate claims did not occur.
However, complete information from Ryland servicing files was not available to PNC to address
adequately FDIC’s concerns.

During our audit of securitization transactions 1992-03 and 1992-04, we found $45,879 in duplicate
principal and interest advance claims. Following discussions with DRR MBS officials, we decided
to expand our review of this area to include all eight securitization transactions transferred from
Ryland to PNC.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine the amount of questioned costs related to duplicate
principal and interest claimed by Ryland and PNC. The OIG generated worksheets that summarized
each of the officer’s certificates filed by Ryland. These worksheets listed the amounts claimed for
each individual loan during the period of Ryland’s servicing. For the PNC review, we also created
worksheets on a loan level basis of all claims submitted by PNC for the eight transactions that
transferred to PNC. We then requested that PNC provide its database of all of the transferred
Ryland loans. This database indicated PNC’s loan number and each loan’s corresponding Ryland
loan number. Using the above information, we determined which loans had claims submitted by
both Ryland and PNC. We further reviewed these loans to determine the total dollar value of the
claims submitted by each servicer and identify which servicer liquidated the loan. We reviewed
both sets of claims and calculated the duplicate claim amount.

We performed our work at the DRR MBS’s offices in Washington, D.C. We conducted the audit in
accordance with the standards applicable to financial-related audits contained in the Government
Auditing Standards, issued by the Comptroller General of the United States. We began our audit on
November 20, 2000 and completed the fieldwork on January 23, 2001.


RESULTS OF AUDIT

We identified $96,359 of questioned costs for duplicate principal and interest advances for four of
the eight transactions that transferred to PNC, as outlined in table 1. Specifically, we identified
additional questioned costs in the non-sampled loans of securitization transactions 1992-03 and
1992-04, as well as in securitization transactions 1991-15 and 1992-01. The duplicate claims for
transactions 1992-03 and 1992-04 are in addition to those reported in our earlier audit report, Audit
of Claims Made to the Credit Enhancement Reserve Funds for Securitization Transactions 1992-03
and 1992-04, and represent claims made for loans not included in our sampled items from that audit.
                                                   2
These amounts were provided to PNC for comment. PNC has agreed with our findings and
discussed the duplicate advances with Ryland. However, as our report pointed out, PNC was
responsible for filing the duplicate claim and is therefore responsible for reimbursing the reserve
funds of the securitization transactions.

Table 1: Summary of Duplicate Principal and Interest Claims by Transaction


                                                       Total Amount of
Transaction Number           Number of Loans           Duplicate Claims

        1991-15                       2                             $13,429

        1992-01                       4                               18,975

        1992-03                       7                               17,962

        1992-04                       7                               45,993

            Total                    20                             $96,359
Source: OIG analysis.

Recommendation

We recommend that the Manager, MBS, DRR:

(1)     Disallow the duplicate principal and interest payments totaling $96,359, as detailed below:

        !     Securitization Transaction 1991-15: $13,429
        !     Securitization Transaction 1992-01: $18,975
        !     Securitization Transaction 1992-03: $17,962
        !     Securitization Transaction 1992-04: $45,993


CORPORATION COMMENTS AND OIG EVALUATION

On February 20, 2001, the Deputy Director, Franchise and Asset Marketing, DRR, provided a
written response to the draft report. The response is presented in Appendix I of this report. DRR
management agreed to disallow $96,359 in questioned costs. Further, DRR is pursuing collection
of the disallowed amount through settlement discussions with PNC. DRR expects the discussions
to be completed by June 30, 2001. DRR will maintain all documents pertaining to the settlement
discussions with PNC.




                                                  3
The Corporation’s response to the draft report provided the elements necessary for a management
decision on the report’s recommendation. Therefore, no further response to this report is necessary.
Appendix I presents management’s proposed action on our recommendation and shows that there is
a management decision.

As a result of our audit, we will report questioned costs of $96,359 in our Semiannual Report to the
Congress.




                                                 4
                                                                                    APPENDIX I
Federal Deposit Insurance Corporation
550 17th Street NW, Washington, DC 20429                                   Division of Resolutions and Receiverships


DATE:                February 20, 2001

TO:                  David Loewenstein
                     Assistant Inspector General

FROM:                James R. Wigand
                     Deputy Director, Franchise and Asset Marketing

SUBJECT:             Response to Draft Report Entitled Securitization Transactions Serviced by PNC
                     Mortgage, Audit of Duplicate Principal and Interest Advances


The following describes the management actions in response to recommendations contained in the
above referenced report.


1) Disallow the duplicate principal and interest payments totaling $96,359, as detailed below:

          Securitization Transaction 1991-15               $13,429

          Securitization Transaction 1992-01               $18,975

          Securitization Transaction 1992-03               $17,962

          Securitization Transaction 1992-04               $45,993

          A)         Specific Action Already Taken:

                     The FDIC concurs with the OIG findings to disallow $96,359 in duplicate
                     principal and interest payments claimed by both PNC and Ryland Mortgage to the
                     Credit Enhancement Fund for each detailed transaction listed above. We are
                     currently pursuing the collection of the disallowed amount from PNC Mortgage
                     for the total duplicate principal and interest payments in accordance with Section
                     3.04 of the corresponding Pooling and Servicing Agreements.

          B)         Corrective Actions to be Taken Together with Expected Completion Date:

                     DRR has contacted PNC regarding the disallowed principal and interest payment
                     amount and it appears that PNC generally agrees with the disallowed amount. We
                     will follow up with a written request for reimbursement. We expect that the
                     collection of the deficiency will be completed by June 30, 2001.

          C)         Documentation that will confirm the completion of the corrective action.
                                                      5
             DRR will maintain all documents pertaining to the settlement discussions with
             PNC.




cc:   Director, Office of Internal Control Management
      Director, Division of Resolutions and Receiverships
      Associate Director for Internal Review, DRR
      Internal Control Liaison, DRR




                                              6
                                                                                                                           APPENDIX II
                                     MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in
its semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related
guidance, several conditions are necessary. First, the response must describe for each recommendation

! the specific corrective actions already taken, if applicable;
! corrective actions to be taken together with the expected completion dates for their implementation; and
! documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the
reasons for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s
response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered
valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the
documentation confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management
decisions. The information for management decisions is based on management’s written response to our report.
                                                                                      Documentation That                     Management
 Rec.                                                                Expected            Will Confirm         Monetary       Decision: Yes
Number         Corrective Action: Taken or Planned/Status         Completion Date        Final Action         Benefits          or No
                                                                                      Documents pertaining
            The Corporation agreed to disallow $96,359 and will                                               $96,359 in
                                                                                      to settlement
    1       pursue collection of this amount through settlement    June 30, 2001                              disallowed          Yes
                                                                                      discussions with
            discussions with PNC.                                                                                costs
                                                                                      PNC.

                                                                   7
8
